 AUDIT OF THE OFFICE OF JUSTICE PROGRAMS 

OFFICE OF JUVENILE JUSTICE AND DELINQUENCY 

    PREVENTION GRANT AWARDED TO THE 

 NEW YORK AGENCY FOR COMMUNITY AFFAIRS





         U.S. Department of Justice 

       Office of the Inspector General 

                Audit Division 



         Audit Report GR-70-12-002 

               November 2011

           AUDIT OF THE OFFICE OF JUSTICE PROGRAMS 

   OFFICE OF JUVENILE JUSTICE AND DELINQUENCY PREVENTION 

                    GRANT AWARDED TO THE 

          NEW YORK AGENCY FOR COMMUNITY AFFAIRS


                              EXECUTIVE SUMMARY


        The U.S. Department of Justice Office of the Inspector General (OIG),
Audit Division, has completed an audit of an Office of Justice Programs
(OJP), Office of Juvenile Justice and Delinquency Prevention (OJJDP), grant,
number 2005-JL-FX-0044, to the New York Agency for Community Affairs
(NYACA). The total award amount of the grant was $138,130, and the grant
funding was to be used to sustain the efforts of the Association of
Community Organizations for Reform Now (ACORN) Youth Union in providing
student leadership training and establishing a committee to recruit 200
student members and 16 core leaders. Additionally, the grant-funded
program was to inform students about current issues and to teach them
about government processes so that they could increase their knowledge
and be better able to address the important issues that affect the quality of
life in their communities.

      The objective of this audit was to determine whether reimbursements
claimed for costs under the grant were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and the terms and
conditions of the grant. We also assessed NYACA’s program performance in
meeting grant objectives and overall accomplishments.

      We reviewed NYACA’s compliance with seven essential grant
requirements and determined that NYACA did not fully comply with the grant
requirements we tested. Specifically, we found: (1) internal control
weaknesses; (2) funding requests that resulted in excess cash on hand;
(3) unsupported grant expenditures; (4) weaknesses in budget management
and control; (5) lack of contractor monitoring; (6) inadequate grant
reporting, including late and inaccurate reports; (7) award special conditions
that were not met, including a requirement to notify OJP of any change in
key personnel, a change in the project’s timeline, and a requirement to
request prior OJP approval before using grant funds to support any law,
regulation, or policy at any level of government; and (8) deficiencies with
the program’s overall performance. Because of the deficiencies identified, we
questioned $138,129, or 100 percent, of the grant funds NYACA expended.1


      1
         While the original OJP approved grant award was for $138,130, NYACA requested
and received funding of $138,129. The difference of $1 was later deobligated by OJP after
the award period ended.

                                           -i-
     These items are discussed in detail in the Findings and
Recommendations section of the report. Our audit objectives, scope, and
methodology are discussed in Appendix I.

      We discussed the results of our audit with NYACA officials and have
included their comments in the report, as applicable. In addition, we
requested a response to our draft report from NYACA and OJP, and their
responses are appended to this report as Appendix III and IV, respectively.
Our analysis of both responses, as well as a summary of actions necessary
to close the recommendations can be found in Appendix V of this report.




                                    - ii -
                                   TABLE OF CONTENTS


INTRODUCTION .......................................................................1 


Office of Justice Programs ............................................................1       

Office of Juvenile Justice and Delinquency Prevention .......................1                 

New York Agency for Community Affairs .........................................2               

Association of Community Organizations for Reform Now ..................2                      

Grant Overview...........................................................................2     

Audit Approach ...........................................................................3    


FINDINGS AND RECOMMENDATIONS........................................5


Internal Control Environment .......................................................5 

Requests for Grant Funding .........................................................7 

Expenditures ..............................................................................8 

Budget Management and Control...................................................9 

Monitoring Contractors… ............................................................ 10 

Reports ................................................................................... 12 

Compliance with Other Grant Requirements .................................. 14 

Program Performance and Accomplishments ................................. 16 

Conclusion ............................................................................... 18 

Recommendations..................................................................... 18 


APPENDIX I - OBJECTIVES, SCOPE, AND METHODOLOGY........ 20


APPENDIX II - SCHEDULE OF DOLLAR-RELATED FINDINGS .... 21 


APPENDIX III - NEW YORK AGENCY FOR COMMUNITY 

   AFFAIRS RESPONSE TO THE DRAFT AUDIT REPORT ......... 22 


APPENDIX IV - OFFICE OF JUSTICE PROGRAMS RESPONSE 

   TO THE DRAFT AUDIT REPORT ......................................... 31


APPENDIX V - OFFICE OF THE INSPECTOR GENERAL
   ANALYSIS AND SUMMARY OF ACTIONS NECESSARY
   TO CLOSE THE REPORT .................................................... 35 

                              INTRODUCTION

       The U.S. Department of Justice (DOJ) Office of the Inspector General,
Audit Division, has completed an audit of grant number 2005-JL-FX-0044, in
the amount of $138,130, awarded to the New York Agency for Community
Affairs (NYACA) by the Office of Justice Programs (OJP), Office of Juvenile
Justice and Delinquency Prevention (OJJDP). The purpose of the grant was
to sustain the efforts of the Association of Community Organizations for
Reform Now (ACORN) Youth Union in providing student leadership training
and establishing a committee to recruit 200 student members and 16 core
leaders. Additionally, the grant application stated that the program was to
inform students about current issues and to teach them about government
processes so that they could increase their knowledge and be better able to
address the important issues that affect the quality of life in their
communities.

       The purpose of this audit was to determine whether reimbursements
claimed for costs under the grant were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and the terms and
conditions of the grant. We also assessed NYACA’s program performance in
meeting grant objectives and overall accomplishments.

Office of Justice Programs

      The Office of Justice Programs, within the U.S. Department of Justice,
provides the primary management and oversight of the grant we audited.
According to its website, OJP works to form partnerships among federal,
state, and local government officials in an effort to improve criminal justice
systems, increase knowledge about crime, assist crime victims, and improve
the administration of justice in America.

Office of Juvenile Justice and Delinquency Programs

       The Office of Juvenile Justice and Delinquency Programs (OJJDP) is a
component of OJP. According to its website, OJJDP supports states, local
communities, and tribal jurisdictions in their efforts to develop and
implement effective programs for juveniles. OJJDP sponsors research,
program, and training initiatives; develops priorities and goals and sets
policies to guide federal juvenile justice issues; disseminates information
about juvenile justice issues; and awards funds to states to support local
programming.




                                     -1-
New York Agency for Community Affairs

      The New York Agency for Community Affairs (NYACA) was created in
1998 as a nonprofit organization under section 501(c)(3) of the Internal
Revenue Code. According to the program narrative in its grant application,
the organization was developed to assist grassroots community
organizations in meeting the needs of low and moderate income
communities.

       According to NYACA’s grant application, NYACA worked with the
Association of Community Organizations for Reform Now (ACORN) to identify
and recruit potential leaders, such as block association officers, parent
organization leaders, and other neighborhood-based activists to accomplish
its organizational and grant-related goals. NYACA was described by a former
ACORN official as a fiscal agent that worked under the auspices of ACORN to
carry out programs and other activities on ACORN’s behalf.

Association of Community Organizations for Reform Now

      According to its website, the Association of Community Organizations
for Reform Now (ACORN) was the nation’s largest grassroots community
organization of low- and moderate-income people, with national
headquarters in New York, New Orleans, and Washington, D.C., and more
than 1,200 neighborhood chapters in about 75 cities across the country.
The website also stated that the members of ACORN took on issues of
relevance to their communities, including discrimination, affordable housing,
and quality education. In January 2010, the New York chapter of ACORN
ceased to exist. We were also told by an outside legal counsel for ACORN
that ACORN filed for Chapter 7 bankruptcy in November 2010.

Grant Overview

       In performing our audit work, we determined that although NYACA
was the recipient of the OJP grant award, it acted as a pass-through entity
(fiscal agent) for the grant funds it received. While NYACA’s OJP-approved
budget was for the allocation of grant funds to payroll and fringe benefit
charges, we determined NYACA did not have any paid employees at the time
it received the grant or at any time during the life of the grant-funded
project. All of the individuals who worked on behalf of NYACA were ACORN
employees. Further, the former NYACA Executive Director stated that she
served concurrently as the Executive Director for both NYACA and the New
York branch of ACORN. NYACA entered into a contractual agreement with
ACORN for contract employees and all NYACA grant funds were transferred


                                    -2-
to ACORN for contractual payroll and fringe benefit charges paid to ACORN
employees.

      According to NYACA officials and outside counsel for ACORN,
Louisiana-based Citizens Consulting Inc. (CCI) provided all the financial
services for NYACA, ACORN, and ACORN affiliate organizations. These
services included pension, benefit, and payroll administration. As a result,
CCI performed all the accounting functions for this grant, including the
maintenance of NYACA’s bank accounts. NYACA officials stated that,
although certain ACORN employees had read-only access to the accounting
records, CCI alone maintained the accounting data. 2 Certain CCI employees
were designated assistant treasurers and were authorized to approve payroll
charges on behalf of ACORN.

      As part of our audit, we determined that all of the grant funds were
essentially transferred from NYACA’s bank account to ACORN’s account, both
of which were maintained by CCI.

Audit Approach

       We tested compliance with what we consider to be the most important
conditions of the grants. Unless otherwise stated in our report, the criteria
we audited against are contained in the Office of Justice Programs Financial
Guide (OJP Financial Guide) and the award documents. The OJP Financial
Guide serves as a reference manual to assist award recipients in their
fiduciary responsibility to safeguard and ensure that grant funds are used
appropriately and within the terms and conditions of the awards. We tested
NYACA’s:

        Internal control environment to determine whether the financial
         accounting system and related internal controls were adequate to
         safeguard grant funds and ensure compliance with the terms and
         conditions of the grant.

        Requests for grant funding to determine whether requests for
         reimbursement, or advances, were adequately supported and
         whether NYACA managed its grant receipts in accordance with
         federal requirements.



       2
         At the time of our audit field work, NYACA was a stand-alone organization with its
own employees, including an executive director with whom we spoke. That executive
director was not employed by NYACA, however, during the OJP grant period.

                                           -3-
     	 Expenditures to determine whether costs charged to the grants
        were allowable and supported.

     	 Budget management and controls to determine whether NYACA
        adhered to the OJJDP-approved budget for expenditures of grant
        funds.

    	 Monitoring of contractors to determine whether NYACA had taken
       appropriate steps to ensure that contractors complied with grant
       requirements.

     	 Reporting to determine whether the required Federal Financial
        Reports and progress reports were filed on time and accurately
        reflected grant activity.

     	 Compliance with other grant requirements specified in the
        individual grant award documents.

     	 Program performance and accomplishments to determine
        whether NYACA achieved the grant objectives and to assess NYACA’s
        performance and accomplishments.

      When applicable, we also tested for compliance in the areas of
program income, matching funds, accountable property, and indirect costs.
For this grant, we determined NYACA had no program income, was not
required to provide matching funds, had no accountable property, and did
not charge indirect costs.




                                   -4-
                     FINDINGS AND RECOMMENDATIONS

          COMPLIANCE WITH ESSENTIAL GRANT REQUIREMENTS

      We determined that NYACA did not fully comply with the
      essential grant requirements in the areas we tested. We
      found: (1) internal control weaknesses; (2) funding requests
      that resulted in excess cash on hand; (3) unsupported grant
      expenditures; (4) weaknesses in budget management and
      control; (5) lack of contractor monitoring; (6) inadequate grant
      reporting, including late and inaccurate reports; (7) award
      special conditions that were not met, including a requirement
      to notify OJP of any change in key personnel, change in project
      timeline, and a requirement to request prior OJP approval
      before using grant funds to support any law, regulation, or
      policy at any level of government; and (8) deficiencies with the
      program’s overall performance. As a result of these
      conditions, we questioned $138,129 or 100 percent of the total
      grant award requested and received.3 These conditions,
      including the underlying causes and potential effects, are
      further discussed in the body of this report.

Internal Control Environment

      According to the OJP Financial Guide, the recipient of a grant award is
responsible for establishing and maintaining an adequate system of
accounting and internal controls. The absence of an adequate and effective
internal control environment leaves grant funds at significant risk and
weakens the ability of the grant recipient to ensure that federal funds are
being adequately safeguarded and spent accurately and properly in
accordance with grant objectives.

       As part of our audit, we reviewed NYACA’s financial management
processes, policies, procedures, and Single Audit Report to assess NYACA’s
risk of non-compliance with laws, regulations, guidelines, and the terms and
conditions of the grant. We also interviewed grant officials and requested
data from the accounting and processing systems to determine whether the
controls were designed to properly account for grant funds and were working
as designed.


      3
         While the original OJP approved grant award was for $138,130, NYACA requested
and received funding of $138,129. The difference of $1 was later deobligated by OJP after
the award period ended.

                                          -5-
      Although our audit did not assess NYACA’s overall system of internal
controls, we did review the internal controls of NYACA’s accounting system
specific to the administration of DOJ funds during the period under review.
We determined that throughout the life of the grant, NYACA did not have a
system of internal controls to adequately document, track, and account for
grant funds. Specifically, there were no policies and procedures in place to
ensure that: (1) grant fund requests were adequately supported; (2) grant
funds received were properly segregated from other funding sources in
NYACA’s accounting system; (3) grant-related expenditures were reliably
tracked and monitored; and (4) there was effective contractor monitoring.
These internal control deficiencies are further discussed in the body of the
report.

Single Audit

       According to Office of Management and Budget (OMB) Circular A-133,
if a non-federal entity expends $500,000 or more of federal funds in a year,
a Single Audit must be performed, with the audit report due no later than 9
months after the end of the fiscal year.

       Because NYACA expended less than $500,000 in federal funding in
2005, it was not required to have a Single Audit performed for that year.
However, NYACA was required to have a Single Audit completed for 2006.
The 2006 Single Audit report was issued April 29, 2008, more than 7 months
after it was due. NYACA’s counsel told us the audit was late because the
firm it used was based in New Orleans, Louisiana and suffered hurricane-
related damage to its offices, delaying issuance of the report.

      Although the Single Audit did not identify any noncompliance with laws
and regulations concerning DOJ grants, the auditors determined that NYACA
misclassified the income and expenses related to one of its Department of
Education funded programs. Given NYACA’s errors in the classification of
Department of Education grant funds it received, we determined that funds
provided under the DOJ grant award were also at risk for similar
misclassification.

Retention of Records

      According to the OJP Financial Guide, grant recipients are required to
maintain all financial records, supporting documents, and any other records
pertinent to the award for at least 3 years. The 3-year retention period
starts from the date of the closure of the Single Audit report covering the
entire award period.


                                    -6-
      At the start of the audit, NYACA’s counsel informed us that NYACA had
limited documentation because most of the records pertaining to this audit
were destroyed when ACORN ceased operations. NYACA’s counsel and
current NYACA officials stated they believed that the record retention period
ended 3 years after the close of the grant, which occurred in 2006.
However, the Single Audit report was not issued until April 2008, Therefore,
the grantee was required to have had all grant-related documentation at the
time of our audit.

Requests for Grant Funding

      The OJP Financial Guide establishes the methods by which the DOJ
makes payments to grantees. The methods and procedures for payment are
designed to minimize the time elapsed between the transfer of funds by the
government and the disbursement of funds by the grantee. Grantees may
request grant funding on a reimbursable basis or in advance of making
actual outlays. However, if grant funding is requested as an advance, the
grantee must ensure that cash on hand is kept to a minimum and disbursed
immediately or within 10 days of receipt.

     We determined that NYACA requested and received a total of
$138,129 in grant funding between August 29, 2005, and
September 16, 2006.

      According to NYACA officials present at the time of the award, NYACA
did not have any paid employees and all the personnel that worked on
behalf of NYACA were employed by ACORN. As a result, NYACA used grant
funding to reimburse ACORN for payroll expenditures and related fringe
benefit charges.

      We determined that grant-related expenditures were not accounted for
separately in NYACA’s accounting system and that NYACA no longer
maintained invoices submitted by ACORN to cover the contractual services
its employees provided. Therefore, we relied on bank records to determine
when NYACA obtained and disbursed grant funds.

      NYACA provided us with a disbursement and receipt schedule, created
by the former grant manager, which listed information related to grant
expenditures and drawdown requests. This schedule was not part of
NYACA’s accounting system, but included total grant expenditures by
quarter, the dates and amounts of each funding request, and the dates the
funds were transferred from NYACA to ACORN’s bank account. Our review


                                    -7-
of the bank statements and a comparison with OJP drawdown
documentation enabled us to verify that the information in the schedule
accurately depicted grant-related activities, and determined this to be a
reliable source for the information provided.

      Based on our review of bank records, and the documentation
discussed above, we determined that the time between each drawdown and
payment to ACORN ranged between 15 and 145 days.

Expenditures

      According to the OJP Financial Guide, grantees are required to
maintain accounting records supported by source documentation. Grantees
are also required to maintain effective control over and accountability for all
grant-related funds, property, and other assets.

      We found that NYACA’s accounting system did not segregate its grant
funds from those funds derived from other sources. In addition, we
determined that the records we reviewed were not reliable because NYACA’s
recorded transactions were not adequately supported. Without reliable
records from an audited accounting system, we were unable to complete out
transaction testing. However, our review of canceled checks accompanying
the NYACA bank statements enabled us to verify that NYACA paid ACORN
$138,129.

      According to current NYACA officials, grant funds were paid to ACORN
for payroll expenditures and fringe benefit charges. These payments were
for ACORN employees working on NYACA’s behalf in carrying out grant-
funded activities. Although we verified that the ACORN employees were all
paid during the pay period under review no documentation adequately
supported how much time ACORN personnel worked on implementation of
the grant program.

      Because NYACA did not have a verifiable payroll allocation
methodology and process in place at the time of the grant award, we found
that NYACA was unable to provide adequate support for the grant
expenditures. The former NYACA Executive Director said that she estimated
the time spent on grant activities for the ACORN employees paid with grant
funds and charged the grant accordingly. NYACA provided schedules
prepared by its former Grant Manager listing the payroll and fringe benefit
charges for each ACORN employee who we were told worked on grant-
related activities. However, we could not determine the reliability of these
schedules because NYACA did not provide further supporting documentation,

                                     -8-
such as time and attendance sheets or other payroll records adequately
supporting personnel charges to the grant.

      Because NYACA’s accounting records did not reflect grant expenditures
and NYACA did not maintain documentation to support grant expenditures,
we are questioning $138,129 as unsupported. When grantees do not
maintain documentation supporting grant expenditures, the potential for
fraud, abuse, and the wasteful spending of grant funds is greatly increased.

Budget Management and Control

      Upon grant award approval, OJP provides a Financial Clearance
Memorandum to grant recipients that includes the approved itemized budget
for the grant. The OJP Financial Guide requires that grantees spend grant
funds according to the defined budget categories, or request advance
approval for reprogramming the funds if actual spending for direct cost
categories exceeds 10 percent of the total grant award.

      For the NYACA grant award, the OJP-approved budget had two cost
categories that included Personnel and Fringe Benefits. To determine
whether NYACA adhered to the approved budget, we compared the amounts
included in the approved budget to the actual costs.

       According to former and current NYACA officials, until January 2010,
NYACA had no paid employees and all of the personnel who worked on
behalf of NYACA were ACORN-paid employees, including the executive
director. To meet the objectives of the grant, NYACA entered into a contract
with ACORN to provide personnel services. Under the contractual
arrangement with NYACA, ACORN employees performed organizing activities
that included recruiting members and helping develop leaders in accordance
with the grant award goals and objectives. As a result, NYACA allocated a
total of $138,129, budgeted for payroll and for fringe benefits for contracted
staff services, exceeding the allowable 10 percent budget reprogramming
requirement by $124,316. We determined that NYACA did not request or
receive advance approval from OJP to make this change to the grant budget.

      The ACORN employee who served as the executive director of NYACA
and who completed the grant application could not explain why the award
budget categories were miscategorized. While we found that the grant
application submitted to OJP clearly detailed that ACORN employees would
be providing the services, the budget only included payroll and fringe benefit
categories for NYACA personnel. The budget did not disclose that the
employees would be provided by ACORN under contract. In our judgment, it


                                    -9-
is important that NYACA expend grant funds according to the approved
budgeted categories. Prudent budget administration and sound financial
management requires types of costs to be treated consistently from budget
formulation through the actual expenditures. Failure to adequately control
grant budgets could lead to the wasteful and inefficient expenditure of grant
funds.

      Our questioned costs are based on the total budget overage of
$138,129 received by NYACA, reduced by the 10 percent budget
reprogramming allowed ($13,813) for the grant budget. After adjustments,
we questioned $124,316 of grant funds expended as unallowable transfers
between budget categories.

Monitoring Contractors

      As stated previously in this report, NYACA was approved to use grant
funds for two budget categories that included payroll and fringe benefit
charges. However, all of the personnel who worked for NYACA in carrying
out the grant funded activities were ACORN employees. As a result, NYACA
entered into a written agreement with ACORN to provide contract employees
to meet its grant-funded goals and objectives.

     According to the OJP Financial Guide, grantees should ensure that they
monitor organizations under contract to them in a manner that will ensure
compliance with their own overall financial management requirements.

      Counsel for NYACA explained that NYACA was a “fiscal sponsor” for
ACORN and often received funding on behalf of ACORN, but ACORN-paid
employees provided the actual services. NYACA counsel further commented
that NYACA fully disclosed ACORN’s role in the project in its grant
application. He also said ACORN’s practice was to submit an invoice to
NYACA for services provided. Then, NYACA would request grant funds to
reimburse ACORN for services rendered.

       To assess the adequacy of contract monitoring, we reviewed the
agreement between NYACA and ACORN and determined that the contract
was general in nature and did not clearly describe services, expected results,
a schedule for deliverables, billing schedules, or payment schedules. We
also interviewed the ACORN employee who served as NYACA’s executive
director during the life of the grant. She stated that she generally
monitored ACORN employee activities; however, there were no formal
mechanisms in place for monitoring the contractor for grant-related
activities. She further stated that there were no written policies and


                                    - 10 -
procedures in place to provide a structure for effective monitoring of NYACA
contracts.

      According to the executive director, the ACORN employees who
performed grant-related activities were not told they were working on a
grant-funded project. Further, none of these ACORN employees was
informed of the goals and objectives related to the grant.

      As part of our review of the monitoring of contractors, we requested
documentation support the services provided by ACORN. We requested
invoices, timesheets, activity reports, and any other available
documentation.

        Initially, NYACA staff provided a schedule created in response to our
request. The schedule contained a list of 20 ACORN employees and the total
amount of grant funds allocated to each employee. According to NYACA,
this list was created from one employee’s memory of grant-related activities
performed by ACORN employees whom he supervised throughout the life of
the grant. The list was not based on any available or verifiable
documentation.

       In a separate discussion with the ACORN employee who served as the
NYACA executive director, we were provided a different schedule that was
said to have been prepared by the ACORN employee who served as the
NYACA grant manager throughout the life of the grant. This schedule
identified 8 ACORN employees paid with grant funds. The schedule also
detailed the total amount of grant funds allocated to each employee,
including fringe benefit charges applied for each fiscal quarter.

       Because we were unable to verify the accuracy of either schedule, we
requested activity reports and timesheets for all ACORN employees identified
on each schedule. The executive director explained that NYACA did not
require ACORN employees to submit activity reports or any other report that
would reflect the time spent performing specific activities. Based on our
review of the timesheets, we determined that ACORN employee’s only
documented hours worked for each pay period and that time was not
allocated based on a specific activity. There was no indication on any
timesheet of time allocated to the grant. The executive director said she
estimated the hours each employee spent performing grant-related
activities. As a result, we were unable to verify that the allocation of labor
charges was accurate.



                                    - 11 -
      In our view, NYACA did not adequately monitor its contract with
ACORN throughout the life of the grant. Coupled with the lack of a clearly
defined contract and formalized policies and procedures for the monitoring of
the contract, NYACA needlessly put grant funds at risk.

Reports

Financial Status Reports

      In 2005, OJP monitored the financial aspects of grants through
Financial Status Reports (FSR).4 FSRs provided OJP grant managers current
and cumulative information on expenditures and obligations on a quarterly
basis and are one way OJP monitored grants. According to the OJP Financial
Guide, FSRs should have been submitted within 45 days of the end of the
most recently passed quarterly reporting period. The final FSR report was
due 120 days after the end date of the award.

      NYACA submitted a total of five FSRs for the grant. We tested these
FSRs for both accuracy and timeliness. We attempted to compare the
amount of quarterly expenditures reported on the FSRs with expenditure
data from the accounting records maintained by NYACA. We were not able
to match the quarterly amounts reported on the FSRs to the accounting
records because NYACA did not separately account for grant funds. Also,
NYACA did not maintain invoices submitted by its contractor, ACORN, for
services provided. Therefore, we compared the amounts NYACA reported on
its FSRs to NYACA’s cancelled checks reflecting payments to ACORN.

       We determined that the FSRs did not accurately reflect grant activities.
For all five FSRs, the reported grant activity did not match the actual
expenses incurred by the grantee. According to the 2005 OJP Financial
Guide, FSRs must reflect actual grant expenditures.

       We determined that of the five FSRs submitted by NYACA, the first was
late by 23 days and the final was late by 50 days. The NYACA executive
director did not recall why the FSRs were late. When a grantee submits late
or inaccurate reports, it hinders OJP’s ability to properly monitor the financial
activities related to the grant. As a result, we recommend that NYACA
implement policies and procedures to ensure timeliness and accuracy of all
required reports.

       4
         These reports are no longer called Financial Status Reports. Effective for the
quarter beginning October 1, 2009, grant recipients report expenditures online using the
Federal Financial Report (FFR-425) Form no later than 30 days after the end of each
calendar quarter.

                                          - 12 -
Progress Reports

       Progress Reports are submitted to describe the performance of grant
activities and the accomplishment of the objectives set forth in the approved
award application. According to the OJP Financial Guide, progress reports
are to be submitted within 30 days after the end of the reporting periods,
which are June 30 and December 31.

      NYACA was required to submit three progress reports over the life of
the grant. We reviewed the reports for timeliness and accuracy. We
determined NYACA submitted the required progress reports, but two of the
three reports were submitted 4 days late. We considered this tardiness to
be immaterial and not evidence of a systemic weakness.

       As a result of changes NYACA made to the scope of the grant, the
information provided in NYACA’s progress reports did not always address the
goals and objectives set forth in its award application.5 We asked NYACA
officials to provide documentation to support the achievement of any of its
goals and objectives for the grant; however, NYACA was not able to provide
documentation to support any grant-funded achievements. NYACA’s current
executive director acknowledged that when ACORN ceased to exist,
documentation related to this grant was discarded and, therefore,
unavailable for our review.

     Because NYACA’s award documentation established performance goals
and objectives as measurable grant objectives of the grant, we believe that
adequate documentation of grant-funded achievements should have been
maintained throughout the life of the grant and could have demonstrated
measurable results. However, because no documentation was maintained,
we could not determine whether any of the grant’s objectives were achieved
and we found that the Progress Reports submitted by NYACA were
unsupported.

       Unsupported progress reports hinder overseers’ ability to monitor
grant activity and increase the risk for grant funds to be wasted or used for
unallowable purposes. Because we could not determine whether the reports
submitted by NYACA were accurate, we recommend that NYACA implement
policies and procedures to ensure the submission of fully supported,
accurate, and timely reports for future DOJ awards.


      5
          We discuss the scope changes in the Program Performance and Accomplishments
section of this report.

                                        - 13 -
Compliance with Other Grant Requirements

      In addition to the general grant requirements, we tested NYACA’s
grant administration for compliance with the terms and conditions specified
in the individual grant award documents. We reviewed each of the 13
special conditions associated with the award and determined that NYACA did
not comply with three special conditions. Specifically, NYACA did not:
(1) obtain OJP’s prior approval for changing key contractor personnel;
(2) obtain OJP’s prior approval for deviating from its approved timeline; or
(3) obtain OJP’s approval for its use of grant-funded resources to advocate
for additional educational funding.

Change in Key Contractor Personnel

      One of the award’s special conditions required that program personnel
designated in the application should be replaced only for compelling reasons
and only with the concurrence of OJP. NYACA’s approved budget for payroll
and fringe benefit charges included $39,275 for a “Brooklyn Schools
Organizer” responsible for youth organizing. The ACORN employee who
served as NYACA’s executive director told us that the Brooklyn Schools
Organizer, an ACORN employee, was removed from the project and replaced
with additional field staff, resulting in the allocation of an additional $85,275
in budgeted grant funds for field organizers. The executive director stated
that she was not aware that OJP approval was needed for this change. The
ACORN employee who first served as the Brooklyn Schools Organizer
confirmed that she was removed from the project and was not paid with
grant funds.6

           Because the grantee made a key personnel change without OJP
knowledge and advanced approval, OJP’s ability to effectively monitor the
grant was impaired. In our view, without a good working knowledge of the
award requirements, the potential for incurring unallowable costs is greatly
increased.

Deviation from Approved Timeline

     A special condition in the award required that OJP approve in advance
any deviation from the timeline stated in the grant application and approved

      6
           The ACORN employee who served as the NYACA executive director told us that, to
achieve the goals and objectives of the grant, grant-funded positions should have been out
in the field knocking on doors. The original Brooklyn School’s Organizer was removed for
failure to do so.



                                          - 14 -
by OJP in connection with the grant award. To determine whether NYACA
complied with this special condition, we interviewed former and current
NYACA officials and reviewed the grant-approved timeline and the progress
reports NYACA submitted to OJP. At the time of its grant application, NYACA
submitted a detailed project timeline that spanned the life of the grant
period and included specific deliverables, including the formation of the
ACORN Youth Union, identifying specific student led campaigns, and
formation of a city-wide steering committee.7

      The ACORN employee who served as NYACA executive director told us
that NYACA changed the scope of the project from what OJP originally
approved. Rather than focusing on recruiting and training youth leaders,
NYACA decided to focus on a community organization campaign to obtain
additional educational funding. Accordingly, we were told that when NYACA
decided to change the scope of its project, it was not able to adhere to its
original project timeline. On this basis, we concluded that NYACA deviated
from its approved timeline and was not in compliance with OJP-imposed
award special conditions.

      As NYACA did not seek OJP’s prior advance approval in making these
changes, we believe that NYACA should implement policies and procedures
to ensure that changes to future project timelines and scope receive prior
approval from the awarding agency.

Use of Federal Funds to Advocate for Local Funding

       One of the award special conditions prohibited the use of federal funds
to support the enactment, repeal, modification or adoption of any law,
regulation, or policy at any level of government without OJP’s written
approval. To determine whether NYACA complied with this special condition,
we reviewed NYACA’s award documentation and progress reports. NYACA’s
final progress report stated that grant-funded community organization
efforts went toward advocating for a $100 million increase in after-school
funding. The progress report stated that ACORN members paid with grant
funds gathered petitions, testified before City Council, and met with City
Council members to increase funding for after school programs.

      We discussed these activities with NYACA officials who told us they did
not consider their actions to violate this special condition. According to the

       7
          The ACORN Youth Union was created as an organization for students. The purpose
of this organization was to help students develop leadership skills through political
education, critical analysis, and the organizing of and participation in campaigns to effect
change in their communities.

                                          - 15 -
current NYACA executive director, the grant-funded activities were for school
funding and not the endorsement of specific candidates and, as a result, did
not require OJP approval. The executive director was not involved with
NYACA during the time of the activity in question.

      The special condition, however, required OJP approval for a broader
scope of activities than the mere endorsement of particular candidates.
Specifically, the condition applies to support for the enactment, repeal,
modification or adoption of any law, regulation, or policy at any level of
government. In addition, NYACA explicitly stated in its progress report
submission to OJP that it advocated for increased funding from the City
Council (Brooklyn, NY). We did not identify any post-award approvals from
OJP or requests from NYACA concerning this grant-funded advocacy. As a
result, we concluded that NYACA was not in compliance with this award
special condition specific to lobbying.

Program Performance and Accomplishments

      The overall goal of the award was to build a base of trained student
leaders that would advocate for improvements and policy changes within
New York's public schools and their communities. The grant had three major
objectives: (1) to form new Youth Union chapters in four new schools; (2)
to establish a citywide youth steering committee of 16 youth leaders to
coordinate citywide campaigns; and (3) to recruit an overall base of 16 core
student leaders and 200 student members.

      To assess NYACA’s achievements in meeting its stated goals and
objectives, we interviewed former and current NYACA officials, reviewed its
progress reports, and requested any data that NYACA compiled, maintained,
and used in order to measure and evaluate performance and
accomplishments related to each objective.

      NYACA officials explained that the scope of the project was expanded
from providing training to students to community organizing to obtain
additional funding for public schools. The ACORN employee who served as
NYACA's executive director told us that, in spite of the change in project
scope, the initial project objectives were obtained. Although NYACA
provided some documentation that included flyers and meeting agendas,
NYACA was unable to demonstrate that 200 student members and 16 core
student leaders were recruited or that four Youth Unions had been formed in
new schools. Further, we believe NYACA did not maintain adequate
documentation to support its other claims of achievement.



                                   - 16 -
     Without data that measures performance, it is difficult to evaluate
whether DOJ funds were used efficiently and whether DOJ funds effectively
addressed the problems for which the money was given.

Change in Project Scope

       The 2005 OJP Financial Guide requires that a change in programmatic
activities or purpose of a project, inclusive of alterations of goals and
objectives, requires prior approval from OJP. To determine whether NYACA
changed the scope of its project, we reviewed grant progress reports, grant
expenditures, and interviewed NYACA officials. We also reviewed
programmatic documentation to determine whether NYACA accomplished its
potentially amended programmatic goals.

      In each of the progress reports it submitted to OJP, NYACA stated that
it changed the scope of its project from recruiting and training youth leaders
to mobilizing the community at large to effect positive change in schools
through work with two educational collaboratives.

      Through its contract with ACORN, NYACA worked to organize
community members to advocate for an increase in local funding for after-
school programs by a total of $100 million over 3 years. Although NYACA
changed the scope of its project, from the documentation we reviewed that
was provided specific to our audit requests during field work, it appeared
that NYACA likely accomplished the amended project objectives.

      NYACA officials told us that the scope of the project was amended
because they perceived the new project could have a greater social impact.
However, NYACA officials told us that while they did not receive prior
approval from OJP, the submitted progress reports informed OJP of the
change in scope and NYACA did not believe further approval was necessary.
In our judgment, NYACA was not in compliance with the OJP Financial Guide
which explicitly requires OJP notification and prior approval before any
changes to the approved project scope.

     OJP’s ability to monitor the grant’s progress was impaired because it
was not properly appraised of NYACA’s activities, resulting in an increased
chance of fraud, waste, and abuse of grant funds.

      Because NYACA drastically altered the project scope and did not
receive prior approval from OJP, we questioned $138,129 as unallowable.




                                    - 17 -
Youth Recruitment

       NYACA was unable to provide documentation to support the claims in
its periodic progress reports that it recruited the number of student leaders
and members projected in its grant application. NYACA’s former lead field
organizer said that NYACA did not maintain sign-in sheets or meeting
agendas that would have substantiated the number of youths it recruited.
The lead field organizer also said that NYACA recruited far fewer than the
200 members and 16 core leaders it intended to recruit according to its
grant application.

      We asked NYACA officials why they were unable to recruit their
targeted number of participants. The ACORN employee who served as
NYACA’s executive director told us that the scope of the project was changed
to focus on community organizing in order to achieve additional educational
funding in economically disadvantaged communities. Because NYACA
changed the scope of its project, it did not accomplish all of its stated goals
related to youth recruitment.

Conclusion

       We found that NYACA did not fully comply with grant requirements and
applicable OMB guidance in several areas we tested. These areas included:
(1) internal controls, (2) funding requests, (3) grant expenditures,
(4) budget management and control, (5) monitoring of contractors,
(6) financial and programmatic reporting, (7) compliance with award special
conditions, and (8) program performance and accomplishments. As a result
of this non-compliance, we are questioning $138,129, which represents the
amount of grant funding requested and received.

Recommendations

We recommend that OJP:

1.	   Ensure that NYACA develops an appropriate methodology with
      accompanying policies and procedures for the accounting and
      documenting of requests for funding.

2.	   Remedy the $138,129 in unsupported costs charged to the grant.

3.	   Ensure that NYACA creates and implements policies and procedures
      that prevent charges to Department of Justice grants that are not
      properly documented.


                                    - 18 -
4.	    Ensure that NYACA receives proper approval for all contracts that are
       not approved in the budget.

5.	    Ensure that NYACA implements policies and procedures to effectively
       monitor entities contracted to perform grant-funded activities.

6.	    Ensure that NYACA implements policies and procedures that ensure
       timeliness and accuracy of all required reports.

7.	    Ensure that NYACA implements policies and procedures that ensure
       that changes to future project timelines receive prior approval from
       the awarding agency.

8.	    Ensure that NYACA implements policies and procedures that ensure
       grant funds are not used to advocate for local funding.

9.	    Ensure that NYACA implements policies and procedures that ensure
       that changes in project scope receive prior approval from the awarding
       agency.

10.	   Remedy the $138,129 in funds that went towards the re-scoped
       project without OJP approval, including $124,316 in funds which
       NYACA reprogrammed to an unapproved budget category.

11.	   Ensure that NYACA collects and submits performance measurement
       information and includes the information in its overall plan for
       evaluating the effectiveness of the project.




                                     - 19 -
                                                                 APPENDIX I 



               OBJECTIVES, SCOPE, AND METHODOLOGY

      The purpose of our audit was to determine whether reimbursements
claimed for costs under the grant were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and the terms and
conditions of the grant. We also assessed grantee program performance in
meeting grant objectives and overall accomplishments. The objective of our
audit was to review activities in the following areas: (1) internal control
environment, (2) requests for grant funding, (3) grant expenditures,
(4) budget management and control, (5) monitoring of contractors,
(6) federal financial and progress reports, (7) compliance with other grant
requirements, and (8) program performance and accomplishments. We
determined that program income, property management, indirect costs, and
matching funds were not applicable to this grant.

      We conducted this performance audit in accordance with Generally
Accepted Government Auditing Standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provided a
reasonable basis for our findings and conclusions based on our audit
objectives.

      We audited the Office of Justice Programs Grant Number
2005-JL-FX-0044. NYACA had a total of $138,129 in requests and receipts
of grant funding through September 2006. Our audit covered the entire
grant period from September 2005 through September 2006.

       We tested compliance with what we considered to be the most
important conditions of the grant. Unless otherwise stated in our report, the
criteria we audit against are contained in the Office of Justice Programs
Financial Guide and grant award documents.

       In addition, we reviewed the timeliness and accuracy of Federal
Financial Reports and progress reports, evaluated actual program
performance and accomplishments to grant goals and objectives, and
considered internal control issues. However, we did not test the reliability of
the financial management system as a whole.




                                    - 20 -
                                                                          APPENDIX II 



                 SCHEDULE OF DOLLAR-RELATED FINDINGS


QUESTIONED COSTS:                                         AMOUNT                PAGE

Unsupported Expenditures                                     $ 138,129              8

Unapproved change in project scope,                             138,129           9, 18
which includes an unapproved budget
modification


TOTAL OF QUESTIONED COSTS:                                    $276,258

    LESS DUPLICATION8                                        ($138,129)

TOTAL DOLLAR-RELATED FINDINGS:                                $138,129




Questioned Costs are expenditures that do not comply with legal,
regulatory, or contractual requirements, or are not supported by adequate
documentation at the time of the audit, or are unnecessary or unreasonable.
Questioned costs may be remedied by offset, waiver, recovery of funds, or
the provision of supporting documentation.

 




       8
        These costs relate to identical expenditures — though questioned for different
reasons — and as a result, that portion of questioned costs is duplicated. We reduced the
amount of costs questioned by the amount of this duplication.

                                          - 21 -
                                                                                                     APPENDIX III 



        NEW YORK AGENCY FOR COMMUNITY AFFAIRS

          RESPONSE TO THE DRAFT AUDIT REPORT 





C h ....   _.-.ed
Ad"Voc a ;t;es for Ju.s-tice

New YorIr; Office
                     A U.orn.e y ..                                                              Jf~"
225 6roM1way                                                                                     JUSTICE
Suite 1902
New   yoMt.   New York 10007                                                              Arthur z. Schw ~rtz
p: 212-285-1400                                                                                     Attomey at law
f: 212-285-1410                                                                     Adnittco:.l iI'I NY, PI>. a<d DC
                                                                                                   917-923-8136
                                                                               aschw~tU~I~.(;Qm




                                                        September 19,201 I


Thomas O. Pucl'7.cr
Re"ionaJ Audit Manaaef
Office of the Inspector General
Philade lphia Regional Audi t Office:
70 1 Ma rket Street, Suitc 20 1
Philadelphia, Pennsylvania 19106

                    Re;    Offiee of Justice Programs
                           Office of Juvenile Justice and Delinquency I'revention
                           Grant No. 200S-JL-FX-0044

Dear Mr. Pucrzcr:

      The undersigned is counsel to the New York Agency for Community Affai rs
("N YACA"). We have received your drnft audit report on th e year 2005 Juvenile Justice and
Delinquency Prevention Grant #200S-JL-0044. This leiter represents our response.

         It was made clear in our initial application to the award in question that NY ACA was
"cn:aled in 1998 to provide a vehicle for grassroots community organiZlltions to increase their
capacity to meet the needs of low- and moderate- income cotllmunities."· At the time the grant
was solicited and the work was carried oul, NYACA was working closely with the New York
Chap ter of the Association of Community Organizations for Reform Now ("ACORN"), a grass
roots organization, to implement the work articulated in the ori ginal pro posal. TIle relationship
with ACORN was always made clear by NYACA in every progress report.

       As these funds were legally eannarked for NY ACORN wi th NYACA as a fiscal
sponsor, we believe al1 grant deliverablcs were reached. 1be purpose of the OJJDI' program was
to make II difference in the lives of low-income students aoo families in N\:w York City through
organizing for meaningful changes in schools. We full y met the goals of our program. liS
documented in our regu lar reports to the award ing agency. In ract, NY ACA expanded the



  NVACA Propoal. p. 6.




                                                 - 22 -
A.d-voca.1;es :for J-u.s1;ice
C h ...... l.ered A"" ... rn. ... y .



         Thomas O. PueJ"L.CT
         September 19, 2011
         Page 2


         impact of our work by reaching more students and parents than originally projected. The DOJ
         audit recommendations substantially misconstlue the work done by NYACA and NY ACORN.

                 It ~hould be noted that NY ACORN ceased operations and went into bankruptcy in 2010
         and moved its records into storage or onto computer disks. NYACA staff made every effort to
         work with the auditors to find the records related to this award. The audit is based heavily on
         two brief interviews with staffwhosc comments were taken out of context. In the end, we feel
         the audit makes false aeeusation~ and reaches misleading conclusions that deter from the fact that
         NY ACA did accomplish the contract deliverables.

                   Before we go through the audit point by point we want to make three additional points:

                 I.      NYACA itsclfceased doing business at the end 0[2010 and now exists only as a
         wind-up operation. It has no stalT and no funds, and is close to compleli ng its corporate
         dissolution under New York's Not for Profit Corporation Law. Should it have any outstanding
         debt, a petition will be filed under Chapter 7 of the Bankruptcy Code.

                 2.      This audit, commenced five years after the work was completed, and after the
         wcll-publicized shutdown and bankruptcy of ACORN , was clearly politically motivated and
         designed to lead to the conclusiQII it reached. NY ACA staff and former staff put ill scores of
         hours of work putting together records, even though N YACA was shut down and ACORN staff
         was gOlle with the wind. This audit and the time taken to look into the events which occurred
         five years earlicr was and is a total waste of taxpayer money. Not one cent will ever be
         recovered by OlP.

                 3.       The grant, from the outset, was a political eannark to do community organizi ng.
         This audit document attempts to hold NY ACA 10 an extraordinarily hi gh standard of reporting, a
         standard whieh few organii'.Iltions receiving fcderal grants adhere to. NY ACA had an ongoing
         relationship with OJJDP officials who made not a single complaint about the work being
         perfonned or the reimbursement being sought. Tbe application of this high standard. and the
         ultimate eonelusion that OJJDP should attempt, years later, to recover funds from a defunct
         organiz.8tion which accomplished the work the earmark was designed to accomplish, is a
         political act, and a violation ofNYACA's due process ri ghts.




                                                        - 23 -
Ad._ ,,"oca:t;es for Ju.stice
Ch.. rter .... A.t.~ ...:ney..



       Thomas 0_ Puco.cr
       September 19, 2011
       Page 3




              Please do not hesitate to contact me should you need additional information.




       ee. Michael Annicclle, Esq.
       AZS:dr
       Ene!.




                                                   - 24 -
                                      AUDIT RFBPONSE


We have responded below to the Recommendations of the audit and discuss why we believe that
each is inappropriate.


/. Em;ure Iltat N YAC4 develops all appropriate m etltod% gy willt accompallyillg policies al/d
I"ucelillres for 'lie aceo /Illtill!; and documenting of requcstj"/or f lflldillg,

Key Finding (I'. 6): " We de/ermined IhallhrQlIghoullhe life of the grant, NYACA did nOI have a
~y~·telll
        of imernal controls to adequately track, document, and properly acco /lllt for grant funds.
Specifically, there were no policies and prflcedllre.f in place to ensure that grant fllnds were
adequately segregated in NYA CA 's accounting system from olher funding .WJurce.f, there was no
system in place to adequately track and monitor grant related expendilUrcl', grant funding
/'cqucsis were not adeqllately supported, (lnd Ihere W(/.f no evidence o[ contractor mOl/ilOring. "

NYACA Re.f()Onve: NYACA did monitor and track gnlllHclated expenditures, and was able to
demonstrate how the funds were spent. NYACA had strong internal controls, policies, and
procedures. to the dollar, showing the awardi ng agency the financial structures, accounting
manual policies, financiall y sound general ledger. tirncshccts and daily activity TC"ports which
clC'Mly demonstrate policies and procedures in place that ensured that award expenses are
Ilccul1ltely reported.


Key Finding (p. 6): "AccQrding 10 the OJP Financial Guide, granl recipients are required /0
mainlain aI/financial recorth, supporling doeumenls, and any other records pertinenllo the
awardfor otleasl J years. The J-year relention period Slarlsjrom the dale ofthe closure ojlhe
Single AI/dll repo/"{ covering the entire award period. AI/he stuff ofthe {ludil, we were informed
by olltside legal counsel representing NYACA Ihal NYACA had limited documentalion available
and that most ofthe records pertaining /0 thi.f lIudit were destroyed."

NYACA Re.f/}onse: The award and contmct undcr this audit covers one NY ACORN federal
earmark forthe periods of2005through 2006. From 2005 through 2006, stafffollowcd thc
report ing requ irements for this grant including: submitting expense reports and accomplishment
narratives related to work on this contmct to the awarding agency. NYACII never received
critical comments or feedback from the award ing agency.

The Department of Justice (DOJ) contacted NY IICA in September of201 0, livc years after the
grdn t period in question, to audit the contract work and fund ing expenditures. It was practically
impossible to go back and establish cntirely what occurred in 2005 since the accounting finn that
handled NY ACA ' s financial rccordkeeping, Citizens Consulting inc. (CCl), went bankrupt in
2010. Despite these obstacles, NYACA was able to find baek.up expenditures records for this
gram which were submitted to the DOl to review for this audi t. It should be noted thatthc
NYACA contract ma nager responsible for oversight oflhis grant was no longer em ployed at
NYACA when NYACA was approached in 2010. Staff that assisted with the DOl audit made


Pa.ge I of6




                                              - 25 -
every dTort to provide infonnation given the li mih:d expos ure to the grant in question. The
current staffwerc either not cmployces ofthc agcncy in 2005-2006 or werc not involved in grant
activities or program man!lgement.

2. R emedy tile $138,129 ill unsupported costs charged 10 tl,e gmlll.

Hey Finding (p. 9): Upon granl aVilaI'd approval, alP provides II Financial Clearance
Memorandum to grunt recipien/.\' Ihol includes Ihe approved ilemized budgel for the grant. The
OJP Financial Guide requires Ihal grantees spend grant funds according 10 Ihe defined budget
categories. or requeST adl'ance opprol'ol for reprogramming the jimds if uClual spendingfar
direcl COSI categories exceeds /0 pi'rceni of Ihe latal granl award.

NYACA Reslmme: The grant was a NY ACORN earmark. The Department of Justice issued a
report in June 2010 which reviewed the NY ACORN DOJ funding that included the $138,129 in
this audit. That report titled "2009 Rel'iew of Department ofluslice Gmntsla the A~'Saci(/lion of
Community Organizalionsfor Reform Now, Inc. (ACORN) ond its Affiliated OrganiUllions"
stated in footnote 21: "While award documentation submitted by thc grautee showed that its
"legal name" is New York Ageney for Community Affairs, Inc., the grantee's "organizational
unit" for the grant was New York Association of Community Organizations for Reform Now
(NY ACORN)."

The NY ACORN salaries charged to the gl'8.nt were reasonable, allowable, legal, and provided
for in the progl'8.m budget submitted to the awardingageney. In the grant budget doeument~,
ACORN salaries were listed as an expense item undcr the salaries category. If the process can
be faulted, it would be for the listing of ACORN salari es under personnel. We maintain,
however, that it was clear from the budget that funds would be used for ACORN staff salaries.


 Key Finding (p. 9). According lojilrmer alld currenl NYACA officials, until January 2010,
NYACA had no paid employees and all aflhe personnel who worked on behalfqfNYACA were
ACORN paid employees, including the Execu/il'e Diret;lor. To nle{![ the objet;/ives of Ihe granl,
 NYACA entered inlo a t:Onlract wilh ACORN 10 prol'ide personnelservit;es. Under lhe
 conlrat:lual arrangement wilh NYACA. ACORN empfo)'ees pelformed organizing aclivilies that
 included recruiting members and helping develop leaders in accordlmce wilh the granl award
gools and objet;/il'e.r. As a result. NYACA allocated a IOLUI of$]38. ]29, budgetedfor payroll and
[ringe benefits, for conlracted slaff serl'ices and exceeded Ihe allowable 10 percent budget
 reprogramming requiremenl by $12{316 We delermined rhat NYACA did nor requesl or receive
 advance approval ji'om OlP 10 make Ihis change 10 the gral1l budgel.

NYACA Response: The expenditures submitted for this grant account for a small portion ofthc
total resources expended to achieve the award outcomcs, as outlined in our response to
recommendation #7 below.

It was the understanding of the staff at the time that the program hudget had been accepted by
OJJDP, with the grant budget to fund salaries and fringe for ACORN staff. Thus, NYACA staff
were not aware that any budget amendment was necessary, and, at no time did NYACA receivt:


Page 2 of 6




                                             - 26 -
communication from QJ10P to this affcct, cven Ihough progress reports showed payments to
ACORN.

All of the funds wcnt to NY ACORN for personnel costs to conduct activities in this grant.
Again, NY ACA made clear in its proposal and budget submission in 2005 that NY ACORN
would perfonn all activities under the grant, During the interview conducted in late 201 0, staff
provided thc back-up documentation for expendi tures for the grant, as clearly staled in Ihis
report: " prepared by the former NY ACA Grant Manager througholll the life of the grant. This
schedule listed a total of8 ACORN employee~ as being paid with grant funds. The schedule also
detai led the total amount of grant funds allocated to cach employee, including fringe benefit
charges applicd for each fiscal quarter.

3. EnSliN! that NYAC4 creates alld imp/emen/l po/iciel nlld procedures thnt prevellf charges
to Dep llflmem 0/ Jlll·tice grOllts IIInl are flOt properly documented.

NYACA Re.monse.· The award and contract under this audit covers Ihe periods of2oo5 through
2006. From 2005 through 2006, staff followed all reporting requirements including the
submission of expense report~ and nalTlltives related to work on this contract. Again, NY ACA




__
never received any critical comments or feedback from the awarding agency. NYACA did not
have a mid-year evaluation or an exit interview.

               --~_~_~~-~_--Nna.-cr
staff and counsel did Ihe best that they could to comply with the discovery process. The fact
remains that NYACA executed and achieved all of the documented contract outcomes. NYACA
no lo nger exists and it will no longcr be implcmenting policies.

4. Ensure that NYACA receives proper a ppro\'al for a ll contracts th at arc not approved in
the budget.

NYACA Response: NY ACORN entered into a fiscal sponsorship contract, a written agreement
between NYACA and NY ACORN, which was fully tmnsparenl and reported to OJJDP. All
funds were to be passed to ACORN for personnel and fringe benefits. The grantee should not be
penaliud for adhering 10 hudget descriptions designated by the awarding agency. The line item
budget approved by the awarding federal agency was submitted based OJ] personnel and fringe
costs for ACORN staff.

All costs submitted on expenditure reports were originally included in Ihe approved grant budget
inlhe persOlUlcl cost itcms. NYACA and NY ACORN accounted for every dollar received
through payroll reports, expenditure reports and program reports. NYACA was a diligent fiscal
sponsor for this award.

5. Ens ure that NYA CA impJemcnb policies a nd procedures to effectively monitor entities
contracted to perform g rant-funded activities.

NYACA      Rc~ponse:   This was donc. NYACA will not be implementing any further policies and
procedul'es.


?~gc   3 of6




                                              - 27 -
6. Ensu~ th at NYACA implements polkies anti procedurcs that         c ns u ~   timelincss anti
acc unlcy of All requ ired reports.

N I'A Cd Response ' Thc 2005 eannark was one of the first federal grants NYACA ever
administered. It did not receive an introductory train ing from the awarding agency at the time of
the grant. Wi thout clear guidance from federal agencies, anything more than substantial
compliance with the m yriad of rules and regulalions governing awarded f\lnds was nearly
impossible.

The FSR's NYACA submitted were reflective of the work carried OUI by Ihis grant. The repo rted
ACORN costs for personnel and fringe on the FSR's incorpordte the dales of paychecks for the R
ACORN employecs paid with grant funds. As stated in ou r ~sponse to Ifl, in the years after the
award, NY ACA made several internal re form s to mirror the growing best practices of the oot­
for-profi t sector.

7. Ensure that NYACA implements policies and procedures that ens urc thai changes ta
future project timclincs rcceive prior approval from the awarding age ncy.

N YACA accomplished the program goals within tile timelioe of the gront period. Attached as
Appendix A is a chart listing each goal and the na ture of what was completed - on time.


Key Findillg (p. 15): The former NYACA Executive Directol· told us that 10 achieve the goals
and objectives ofthe grant. grant-fullded positions should have been Qui in the field knocking on
doors. As a result, the Orooklyn &hool's Organizer was replaced wilh eXlrafield organizers.
Additionally, the former ExeCUlive Director staled Ihat sIlt! was nOI aware rhal DlP opproval
was neededfor this change_

NYACA RupolI.ft!: Awarded funds did not go to organizers for door knocking. Gmnt funded
sllIlTorgllnizcd approved activities to contluct vital communi ty outreach to empower activity
participants to participate in the grant program. The comments of tile fonncr c.D. were taken
Ollt of context. NY ACORN had an award-wi nn ing and natioIUll!y recognized mode l for
community engagement with low-i ncome communities that was used to execute this grant.

Key Pinding (p. 14): "We asked NYACA oDicials 10 provide d()(:umentation to supportlhe
achievement for any 0/ its goals and objectives/or Ihe grant; however, NYACA was 1101 able tv
provide documentalionlo supporl any grant-funded achievements. "

 "Because Nl'ACA '.I' aW(lrd documentation established performance goofs and objectives as
 IIIl!aslirable gran/ objec/iI'es ofthe grant, we believe thai adequate dacumellIation ofgrall/­
fUllded achiel'emems should have been maintained throllghout the life of/he grOn! and could
hm·e demonstrated measurable results. Because we could not delermine whether Ihe reports
submitted by NYACA were accurote dlle 10 a lock ofslipporlillg documentation, we recommend
thaI NYACA implemellls policies and proadures thai ellS!lre Ihe submission offully supported,
occuratc. ond timely reporlsfor jillllre DOl (fWards.PGI 8"


Page " of6




                                             - 28 -
NYACA Respom·e: NY ACA did submit a vast amount of documentation to support the program
work. NYACA provided volumes of documentation that \.\'ere presented to the auditors during
the interview that were not rcficctcd in the D01's audit report.

8. I~ n ~ urt that NYACA implements Ilolicies and   1)I"(lecdure~   that ens ure gra nt fun ds art 1101
used to advoca te for local fundin g.

Key Finding (p. 16): NYACA 'sfinal progress report stuted thut grallt1unded community
organization eff rts went toward advocating/or a $/00 million increase in a/ler-school jimding.
                    o
II a/so .\"aid Ihal ACORN members thaI were paid wilh grallt funds galhered pctitions. teslified
before City Co uncil. and mel with City Council memhers in order to increllse funding for ajier
school programs.

NYACA Response: NY ACORN organizers were never paid with grant funds to organize
members to gather petitions or to testify at public heari ngs. However, it was clearly articulated
in the program proposal that NYACA and NY ACORN would work to educate institutional
stakeholders and community members about the impact of budget cuts. ACORN, whieh was not
a 501 (c)(3), used olher funds for this work.

9. Ensure tha t NYACA hnillements policies a nd procedures that ens ure that changes in
project seOlle receive prior approval from the awa rding agency.

Key Finding (p. /6): "As NYACA did not seek OJP's prior advance appro\'al in making these
changes, we believe thai NYACA should implement policies ({nd proceduI·es 10 enwre Ihol
changes to future project limclines and scope receive prior approval/rom the awarding agency"

NY4CA Rcspom·e: It is common knowledge that submitted proposals and work plans change
during the course of tile year. It should be noted that in the submiltcd logic model, the only
variance was that one of our outputs changed. NYACA was fully transparent with the awarding
agency and would have gladly adjusted our prognlmming if they disagreed at the ti me. It is our
position that sound procedures were in place to assure adherence to project scope based on the
dclivcrablcs reponed.

10. Remedy the $ 138,129 in funds that went t oward ~ the re-scoped project without OJ!'
allprovai, which includes $ 124,316 NYACA reprogrammed to an ullappro ved budget
category.

NYACA Resoome: As clearly shown in Appendix A. NYACA adhered to the project scope, in
the manner proposed, and accomplished its objectives. It should not be required to return funds.

II. Ensure tha t NY ACA collect a nd ~ ubmit Ile rrorma ncc measurentcnt information a nd
include the information in its overall plan for evalua ting tbe effectiveness of the rrojcct.

NYACA Rgoonse: NY ACA and NY ACORN accomplished the stated goals. The 001 auditors
clearly did not grasp the agency's theory of change (md the details communicated during the


Pagt 50f6




                                             - 29 -
audit interview were misunderstood. During the course of the grunt, NYACA and NY ACORN
engaged hundreds of students and developed the leadership of our target population; however,
JJJ any of the pcrfonnancc measurements around leadership development did not have specific
quantitative measurements at the time.


We have attached as Appendix B the Project Abstract submitted in response to Congressman
Owens' eanJJark to ACORN.

We have attached as Appendix C a compendium oflhe project' s progress reports to   dcmon~tratc,
for the record, the extent of reponing and the project's accompli~hmcnts.




Pagc 6 of6




                                           - 30 -
                                                                              APPENDIX IV


                       OFFICE OF JUSTICE PROGRAMS
                   RESPONSE TO THE DRAFT AUDIT REPORT

                                                 U.S. Department of Justice

                                                 Office of Justice Programs

                                                Office of Audit, Assessment, and Management



                                                Washington, D.C. 20531




September 8, 2011

MEMORANDUM TO:               Thomas O. Puerzer
                             Regional Audit Manager
                             Philadelphia Regional Audit Office
                             Office of the Inspector General

                              /s/
FROM:                        Maureen A. Henneberg
                             Director

SUBJECT:                     Response to the Draft Audit Report, Office of Justice Programs,
                             Office of Juvenile Justice and Delinquency Prevention Grant
                             Awarded to the New York Agency for Community Affairs,
                             New York, New York

This memorandum is in response to your correspondence, dated August 12, 2011, transmitting
the subject draft audit report for the New York Agency for Community Affairs (NYACA). We
consider the subject report resolved and request written acceptance of this action from your
office.
The report contains 11 recommendations and $138,129 in questioned costs. The following is the
Office of Justice Programs’ (OJP) analysis of the draft audit report recommendations. For ease
of review, the recommendations are restated in bold and are followed by our response.
1. 	   We recommend that OJP ensure that NYACA develops an appropriate
       methodology with accompanying policies and procedures for the accounting and
       documenting of requests for funding.

       We agree with the recommendation. We will coordinate with NYACA to obtain a copy
       of written policies and procedures, developed and implemented, to ensure that requests
       for funding are properly accounted for and documented, and are in compliance with
       OJP’s cash management policy.

                                           - 31 -
2. 	   We recommend that OJP remedy the $138,129 in unsupported costs charged to the
       grant.

       We agree with the recommendation. We will coordinate with NYACA to obtain
       documentation to support the $138,129 in questioned expenditures that were charged to
       grant number 2005-JL-FX-0044. If adequate documentation cannot be provided, we will
       request that NYACA return the funds to the U.S. Department of Justice (DOJ), adjust
       their accounting records to remove the costs, and submit a revised final Federal Financial
       Report (FFR) for the grant.

3. 	   We recommend that OJP ensure that NYACA creates and implements policies and
       procedures that prevent charges to Department of Justice (DOJ) grants that are not
       properly documented.

       We agree with the recommendation. We will coordinate with NYACA to obtain a copy
       written policies and procedures, developed and implemented, to ensure that all charges to
       DOJ grants are properly documented.

4. 	   We recommend that OJP ensure that NYACA receives proper approval for all
       contracts that are not approved in the budget.

       We agree with the recommendation. We will coordinate with NYACA to obtain a copy
       of written procedures implemented to ensure that NYACA receives prior approval for all
       contracts that were not included in the approved award budget.

5. 	   We recommend that OJP ensure that NYACA implements policies and procedures
       to effectively monitor entities contracted to perform grant-funded activities.

       We agree with the recommendation. We will coordinate with NYACA to obtain a copy
       of written procedures, developed and implemented, to ensure that entities contracted to
       perform grant-funded activities are effectively monitored.

6. 	   We recommend that OJP ensure that NYACA implements policies and procedures
       that ensure timeliness and accuracy of all required reports.

       We agree with the recommendation. We will coordinate with NYACA to obtain a copy
       of written policies and procedures, developed and implemented, to ensure that all reports
       required for OJP awards are accurately and timely submitted.

7. 	   We recommend that OJP ensure that NYACA implements policies and procedures
       that ensure that changes to future project timelines receive prior approval from the
       awarding agency.

       We agree with the recommendation. We will coordinate with NYACA to obtain a copy
       of written policies and procedures, developed and implemented, to ensure that changes to
       future project timelines receive prior approval from the awarding agency.


                                            - 32 -
8. 	    We recommend that OJP ensure that NYACA implements policies and procedures
        that ensure grant funds are not used to advocate for local funding.

        We agree with the recommendation. We will coordinate with NYACA to obtain a copy
        of written policies and procedures, developed and implemented, to ensure that Federal
        grant funds are not used to advocate for local funding.

9. 	    We recommend that OJP ensure that NYACA implements policies and procedures
        that ensure changes in project scope receive prior approval from the awarding
        agency.

        We agree with the recommendation. We will coordinate with NYACA to obtain a copy
        of written policies and procedures, developed and implemented, to ensure that changes in
        project scope receive prior approval from the awarding agency.

10. 	   We recommend that OJP remedy the $138,129 in funds that went towards the
        re-scoped project without OJP approval, which includes $124,316 NYACA
        reprogrammed to an unapproved budget category.

        We agree with the recommendation. We will coordinate with NYACA to remedy the
        $138,219 in questioned costs related to unapproved funds that went towards the
        re-scoped project without OJP approval, which includes $124,316 in funds that NYACA
        reprogrammed to an unapproved budget category.

11. 	   We recommend that OJP ensure that NYACA collect and submit performance
        measurement information and include the information in its overall plan for
        evaluating the effectiveness of the project.

        We agree with the recommendation. We will coordinate with NYACA to obtain a copy
        of written policies and procedures, developed and implemented, to ensure that NYACA
        collects and submits performance measurement information, and includes the information
        in its overall plan for evaluating the effectiveness of the project.

We appreciate the opportunity to review and comment on the draft audit report. If you have any
questions or require additional information, please contact Jeffery A. Haley, Deputy Director,
Audit and Review Division, on (202) 616-2936.

cc: 	   Jeffery A. Haley
        Deputy Director, Audit and Review Division
        Office of Audit, Assessment, and Management

        Jeff Slowikowski 

        Acting Administrator 

        Office of Juvenile Justice and Delinquency Prevention





                                             - 33 -
cc:   Marilyn Roberts
        	
      Deputy Administrator
      Office of Juvenile Justice and Delinquency Prevention

      Angela Parker
      Program Manager
      Office of Juvenile Justice and Delinquency Prevention

      Louise M. Duhamel, Ph. D.
      Acting Assistant Director, Audit Liaison Group
      Management and Planning Staff
      Justice Management Division

      OJP Executive Secretariat 

      Control Number 220111534 





                                          - 34 -
                                                                         APPENDIX V 



              OFFICE OF THE INSPECTOR GENERAL 

  ANALYSIS AND SUMMARY OF ACTIONS NECESSARY TO CLOSE THE 

                           REPORT 



      The OIG provided a draft of this audit report to the New York Agency
for Community Affairs (NYACA) and the Office of Justice Programs (OJP) for
review and comment. NYACA’s response is included as Appendix III of this
report, and OJP’s response is included as Appendix IV. The following
provides the OIG analysis of the response and summary of actions necessary
to close the report.

Analysis of NYACA’s Response

       In response to our audit report, OJP concurred with our
recommendations and discussed the actions it will implement in response to
our findings. However, NYACA included several statements in its response
that we believe need to be addressed.9 Specifically, NYACA stated that our
audit recommendations substantially misconstrued the work done by NYACA.
NYACA also stated that the audit was based heavily on two brief interviews
with staff whose comments were taken out of context, and that the audit
made false accusations and reached misleading conclusions that deter from
the fact that NYACA accomplished the grant-funded deliverables. Further,
NYACA stated that the audit was a total waste of taxpayer money, that none
of the funds will ever be recovered by OJP, and that the audit’s application of
a high reporting standard, and the conclusion that funds should be recovered
from a defunct organization that accomplished the work it was funded to do,
was a political act and a violation of NYACA’s due process rights. NYACA
also stated in its response that: (1) NYACA ceased doing business at the
end of 2010 and now exists only as a wind-up operation with no staff or
funds and is close to completing its corporate dissolution; (2) this audit was
performed 5 years after the grant-related work was completed and the audit
was clearly politically motivated and designed to lead to the conclusion it
reached; and (3) the grant was a political earmark to do community
organizing, and this audit attempts to hold NYACA to an extraordinarily high
standard of reporting, a standard which few organizations receiving federal
grants meet.


      9
          The NYACA response to our draft audit report was prepared by outside legal
counsel that represents NYACA. Because we did not receive an official response directly
from NYACA, we confirmed in writing with NYACA’s Executive Director that this represented
NYACA’s official response to our draft audit report.



                                         - 35 -
      We provide the following reply to NYACA’s statements before
discussing the specific responses to each of our recommendations and the
actions necessary to close those recommendations.

       The OIG conducts its audit work and issues its reports in strict
compliance with Government Auditing Standards, commonly referred to as
Generally Accepted Government Auditing Standards (GAGAS). Under
GAGAS requirements, which were adhered to in this audit, we conducted our
audit with an attitude that was objective, fact-based, nonpartisan, and non-
ideological with regard to the audited entity (NYACA) and the users of our
audit report. Contrary to the NYACA response that characterizes our audit
efforts as a waste of taxpayer money, our work is intended to lead to
improved government management, better decision making and oversight,
effective and efficient operations, and accountability and transparency for
resources and results. OIG audits help identify and deter waste, fraud, or
abuse of taxpayer dollars and do not contribute to such abuses.

       NYACA also stated that our audit recommendations substantially
misconstrued the work done by NYACA. However, our audit
recommendations are based on the evidence presented in the audit report
and are not meant to imply conclusions about NYACA’s work beyond those
presented in the report. In addition, NYACA stated that the audit makes
false accusations and reaches misleading conclusions. While NYACA does
not identify which statements in our report it believes are false, our audit
does not make accusations, rather only presents audit findings and accurate
conclusions that are substantiated by documentation. Further, while the
NYACA response makes additional statements regarding the performance of
this audit as discussed below, it does not provide evidence or information to
support these statements.

       We reviewed and fully considered each of the issues raised by NYACA
in its response to our report. After conducting our analysis specific to the
other matters discussed in the NYACA response, we determined that the
report was factually accurate based on the information we were provided by
NYACA and the issues were clearly stated. Contrary to the NYACA response,
the grant award was not made to ACORN but rather to NYACA as a stand-
alone organization, and it was accepted by officials acting in their capacity as
NYACA employees. While the NYACA response repeatedly states that it was
not the intended grant recipient and that the work was carried out by
ACORN, our detailed review of the award documentation confirms that
NYACA was the intended grant recipient and the accompanying award
documentation includes budget categories for payroll and associated fringe
benefit charges associated with NYACA employee personnel. However, as


                                     - 36 -
our audit disclosed, the actual work funded under the award was carried out
by ACORN employee personnel under contract with NYACA. As we cited in
our audit report, this was a significant change in the scope of the approved
award that should have been reviewed and preapproved by OJP, and failure
to do so by NYACA was a violation of the award terms and conditions.

       The NYACA response concludes that the goals of the award were
accomplished and that our audit relied heavily on two brief interviews with
staff whose comments were taken out of context. These statements are
false and not supported by the evidence we gathered from our audit
fieldwork. Our audit included extensive interviews with current and former
NYACA management personnel who were in a decision making capacity and
also in a position to know what happened at the time the award was active.
In addition, our audit findings and conclusions are further supported by
grant documentation provided to us by NYACA, NYACA’s accounting system
reports, and other documentation such as OJP award documents, as well as
the grant’s regulations, terms, and conditions. Moreover, NYACA could not
provide adequate documentation to prove, as it states in its response, that it
accomplished and exceeded its grant-funded goals and objectives. NYACA
also states that our audit report conclusions deter from the fact that NYACA
did accomplish the contract deliverables. However, conclusions about
NYACA’s accomplishments presented in our audit report are based on the
verifiable audit evidence that NYACA provided. Although the award terms
and conditions clearly required NYACA to retain award documentation,
NYACA did not appear to have adhered to that requirement and, therefore,
could not provide adequate proof of the accomplishments it claims to have
achieved.

      NYACA’s contention that it was held to an extraordinarily high standard
of reporting compliance is unfounded. When NYACA accepted the DOJ
award, it agreed to abide by all the rules, regulations, terms, and conditions
we applied in this audit. These grant rules are not uncommon for DOJ
awards and similar grant recipients are held to the same level of compliance.
While many grant recipients abide by those rules, those recipients that do
not are held accountable, as is NYACA.

      Further, NYACA contends in its response that “[n]ot one cent will ever
be recovered by OJP.” In addition, it states that the application of “this high
standard” or common grant rules it agreed to abide by, along with the
conclusion that OJP should attempt to recover funds from a defunct
organization, is a political act and a violation of NYACA’s due process rights.
While NYACA characterizes itself as defunct, the OIG did not present that
conclusion in this audit report. Further, the OIG made recommendations to


                                    - 37 -
remedy the questioned costs that resulted from NYACA’s failure to adhere to
grant rules, regulations, terms, and conditions. As stated in our report, OJP
may remedy these questioned costs by offset, waiver, recovery of funds, or
the provision of supporting documentation. The identification of questioned
costs and acceptance of remedies of those costs are completed by the OIG in
accordance with laws and regulations. This procedure is neither a political
act nor a violation of NYACA’s due process Rather, it is standard audit
procedure set in place by laws and regulations that help protect taxpayer
dollars, ensure government award recipients adhere to award terms and
conditions, and reduce waste, fraud, and abuse.

Summary of Actions Necessary to Close the Report

1. Resolved. OJP concurred with our recommendation to ensure that
   NYACA develops an appropriate methodology with accompanying policies
   and procedures for the accounting and documenting of requests for
   funding. OJP stated in its response that it will coordinate with NYACA to
   obtain a copy of written policies and procedures, developed and
   implemented, to ensure that requests for funding are properly accounted
   for and documented and are in compliance with OJP’s cash management
   policy.

  In its response, NYACA said it monitored and tracked grant-related
  expenditures. NYACA said it had strong internal controls and policies and
  procedures in place that ensured that award expenses were accurately
  reported. However, from our audit field work, we found that NYACA did
  not have a documented system of internal controls and there were no
  verifiable policies and procedures in place. NYACA failed to comply with
  the OJP Financial Guide, which requires recipients of grant awards to
  establish and maintain an adequate system of accounting and internal
  controls. While NYACA provided several attachments to its response,
  none of those attachments constitutes a policy or procedure of the type it
  discusses in its response.

  NYACA also noted in its response that the active award period dates back
  to 2005 and 2006 and that NYACA never received critical comments or
  feedback from the awarding agency, OJP. Additionally, NYACA said it was
  practically impossible to go back and establish what occurred in 2005
  since the accounting firm that handled NYACA’s financial recordkeeping
  went bankrupt in 2010. However, NYACA said that it was able to find
  backup expenditure records and that these were submitted to us.




                                   - 38 -
  As we discuss in our audit report, NYACA was required to retain all of the
  pertinent records associated with the award. NYACA’s statements that it
  received no critical comments or feedback from the awarding agency
  does not affect our recommendation; nor does the fact that the outside
  accounting entity NYACA used for recordkeeping has filed for bankruptcy.
  Additionally, during our audit, the backup expenditure records that were
  provided to us were either recreated by current NYACA staff from
  memory or provided as summary schedules of purported original
  supporting documentation that we could not verify. Because the majority
  of the grant funded expenditures were related to payroll, we requested
  required employee activity reports and timesheets, which NYACA could
  not provide. As a result, it did not appear that NYACA had sufficient
  internal controls to ensure it adequately accounted for and documented
  requests for funding.

  This recommendation can be closed once sufficient action has been taken
  to adequately address the recommendation.

2. Resolved. OJP concurred with our recommendation to remedy the
   $138,129 in unsupported costs charged to the grant. OJP stated in its
   response that it will coordinate with NYACA to remedy the $138,129 in
   questioned costs that were charged to grant without any supporting
   documentation.

  In its response, NYACA said this award was a New York ACORN earmark,
  and that the ACORN employee salaries were listed as an expense item
  under the salaries category. NYACA reaffirmed in its response that
  ACORN salaries were listed under personnel in the NYACA approved
  award budget, and stated that this would have been the fault in the
  process. However, NYACA said that at no time did it receive
  communication from OJP that a budget modification was necessary, even
  though the progress reports showed payments to ACORN. NYACA also
  said that backup documentation for expenditures for the grant was
  provided to us during the audit. Further, NYACA cited a November 2009
  OIG report that stated that award documentation showed that the
  grantee’s “organizational unit” for the grant was New York ACORN.

  As we discuss in our audit report, NYACA’s approved budget authorized
  personnel and fringe benefit charges for only the use of NYACA
  employees. The use of ACORN employees under contract was not
  authorized in the award budget and resulted in a change of scope that
  required an OJP approved budget modification. The recipient of the
  award, according to the award document, was NYACA. The fact that New


                                  - 39 -
York ACORN was identified in OJP documentation as an organizational
unit of NYACA is not sufficient to conclude that New York ACORN is in fact
a subsidiary of NYACA. In fact, the November 2009 OIG report refers to
NYACA as an affiliate of ACORN, but does not conclude that they are the
same organization. Additionally, the signed federal tax filings that we
reviewed for calendar years 2005 through 2007 (Form 990 – Return of
Organization Exempt From Income Tax) list NYACA as a stand-alone
entity without any affiliates. In summary, we were not provided any
reliable organization documents to prove that New York ACORN was a
subsidiary of NYACA; nor did we verify that New York ACORN personnel
were also legally personnel of NYACA. As a result, we treated the two
organizations, as well as their respective employees, as legally separate.
Moreover, the progress reports we reviewed did not explicitly mention
that ACORN employees were used or paid under the award.

NYACA also stated that its application proposal and budget submission
clearly indicated that New York ACORN would perform all activities under
the grant. However, we reviewed the budget that was approved and
found it made no reference to New York ACORN. Rather, NYACA only
identified the names and titles of three individuals and did not identify
which organization they worked for. Further, NYACA listed these
individuals under the heading “Personnel,” thereby implying these were
employees of NYACA. While the Budget Narrative more clearly showed
that individuals to be paid with grant funds were closely affiliated with
New York ACORN, they were listed under the heading “Personnel.” Since
NYACA, and not New York ACORN, applied for the grant, the budget
narrative and final financial clearance memorandum miscategorized these
expenditures as costs for NYACA personnel. The issue of
miscategorization and re-scoping of the project issue is addressed further
under our discussion of recommendation 10.

However, this recommendation concerned costs that were questioned
because NYACA did not maintain adequate documentation of expenditures
as required. As we previously discussed, back up expenditure records
provided to us were either recreated by current NYACA staff from
memory or provided as summary schedules of purported original
supporting documentation that were not verifiable. Because the majority
of the grant-funded expenditures were related to payroll, we requested
required employee activity reports and timesheets. However, NYACA was
unable to provide such documentation. As a result, we questioned as
unsupported all of the expenditures charged to the award.




                                - 40 -
  This recommendation can be closed when we receive documentation
  demonstrating that OJP has remedied the $138,129 in unsupported costs.

3. Resolved. OJP concurred with our recommendation to ensure that
   NYACA creates and implements policies and procedures that prevent
   charges to Department of Justice grants that are not properly
   documented. OJP stated in its response that it will coordinate with
   NYACA to obtain a copy written policies and procedures, developed and
   implemented, to ensure that all charges to DOJ grants are properly
   documented.

  In its response, NYACA said that the active award period dates back to
  2005 and 2006, that NYACA staff followed all of the reporting
  requirements including the submission of expense reports and narratives
  related to the award, and that it never received critical comments or
  feedback from the awarding agency – OJP. Additionally, NYACA
  responded that it achieved all of the award outcomes, that it no longer
  exists, and that it will no longer be implementing policies.

  The contention that NYACA received no critical comments or feedback
  from the awarding agency has no bearing on the conduct of our audit.
  Additionally, we have not been provided documentation proving that
  NYACA has officially ceased operations and, as of October 28, 2011, the
  New York Department of State's Division of Corporations, State Records
  and Uniform Commercial Code identified NYACA as an organization with
  an “active” status.

  During our audit NYACA did not have any evidence of available policies
  and procedures for us to review. The backup expenditure records
  provided to us during the audit were either recreated by current NYACA
  staff from memory or provided as summary schedules of purported
  original supporting documentation that we could not verify. In addition,
  NYACA stated that it executed and achieved all of the contracted
  outcomes. However, NYACA could not provide us with adequate
  documentation to prove its project objectives were accomplished. As a
  result, we concluded that charges to the grant award were not properly
  documented and NYACA did not have written policies and procedures to
  ensure that all charges to DOJ grants are properly documented.

  This recommendation can be closed once sufficient action has been taken
  to adequately address the recommendation.




                                  - 41 -
4. Resolved. OJP concurred with our recommendation to ensure that
   NYACA receives proper approval for all contracts that are not approved in
   the budget. OJP stated in its response that it will coordinate with NYACA
   to obtain a copy of written procedures implemented to ensure that NYACA
   receives prior approval for all contracts that were not included in the
   approved award budget.

  In its response, NYACA said it entered into a fiscal sponsorship contract
  with NY ACORN which was fully transparent and reported to OJP. NYACA
  said all funds were to be passed to ACORN for personnel and fringe
  benefits and NYACA should not be penalized for adhering to budget
  descriptions designated by the awarding agency. NYACA also concluded
  that it was a diligent fiscal sponsor for this award.

  However, according to the Standard Form 424, Application for Federal
  Assistance (SF-424), NYACA identified “New York Agency for Community
  Affairs” in the field under Applicant Legal Name. According to instructions
  for SF-424 available on Grants.gov, applicants should use that field to
  identify the legal name of the organization that will undertake the
  assistance activity. Based on our audit findings and NYACA’s response, it
  appears that New York ACORN may have been the organization that
  undertook the assistance activity.

  Further, NYACA identified New York Association of Community
  Organizations for Reform Now as the “Organizational Unit” for its SF-424
  application. The SF-424 instructions on Grants.gov explain that
  applicants should enter in that field the name of the primary
  organizational unit, department, or division that will undertake the
  assistance activity. However, we found no documentation that proved
  New York ACORN was an organizational unit, department, or division of
  NYACA. In fact, the employees that appeared to have been paid with
  grant funds were actually employed by the Association of Community
  Organizations for Reform Now, including its executive director. According
  to its 2005-2006 financial statement audit report, NYACA was a fiscal
  agent for ACORN, which was identified as an “affiliated organization.”
  The financial statement report further stated that the affiliated
  organizations are run by independent boards of directors, but share
  common functions and costs. As a result, it appears that New York
  ACORN was not an organizational unit, department or division of NYACA.

  As we discussed in our audit report, we found that NYACA did not have a
  system of internal controls, that there were no verifiable policies and
  procedures in place, and that NYACA did not adhere to the OJP Financial


                                   - 42 -
  Guide as required. Specifically, NYACA’s approved budget authorized
  personnel and fringe benefit charges for the use of NYACA employees
  only. The use of ACORN employees under contract was not authorized in
  the award budget and resulted in a change of scope that required an OJP
  approved budget modification. This distinction is important since
  different grant regulations apply to contractors and recipient employees.

  This recommendation can be closed once sufficient action has been taken
  to adequately address the recommendation.

5. Resolved. OJP concurred with our recommendation to ensure that
   NYACA implements policies and procedures to effectively monitor entities
   contracted to perform grant-funded activities. OJP stated in its response
   that it will coordinate with NYACA to obtain a copy of written procedures
   developed and implemented to ensure that entities contracted to perform
   grant-funded activities are effectively monitored.

  In its response, NYACA said what we are recommending was done and
  that it would not be implementing any further policies and procedures.

  In fact, however, the NYACA response did not specifically address this
  recommendation. As discussed in our audit report, NYACA did not require
  ACORN employees to submit activity reports or any other reports that
  would reflect the time spent performing specific activities funded under
  the award as required by the OJP Financial Guide. As a result, during our
  audit fieldwork, there was no verifiable documentation to demonstrate
  contract oversight, leading to our conclusion that NYACA did not monitor
  its contract with ACORN.

  This recommendation can be closed once sufficient action has been taken
  to adequately address the recommendation.

6. Resolved. OJP concurred with our recommendation to ensure that
   NYACA implements policies and procedures that ensure timeliness and
   accuracy of all required reports. OJP stated in its response that it will
   coordinate with NYACA to obtain a copy of written procedures developed
   and implemented to ensure that all reports required for OJP awards are
   accurately and timely submitted.

  In its response, NYACA said the 2005 earmark was one of the first federal
  grants NYACA ever administered and that it did not receive introductory
  training from the awarding agency. NYACA noted that its Financial Status
  Reports (FSR) were reflective of the work carried out by this grant.


                                   - 43 -
  As we discussed in our audit report, NYACA submitted late FSRs and we
  could not determine whether the reports were accurate due to a lack of
  supporting documentation. Moreover, if NYACA believed that it lacked
  training in proper grant administration, NYACA should have
  communicated this to the responsible OJP Program Manager before
  NYACA agreed to comply with the award terms and conditions in
  accepting the award, including the following conditions listed in the award
  document:

  	 The recipient agrees to comply with the financial and administrative
     requirements set forth in the current edition of the Office of Justice
     Programs (OJP) Financial Guide.

  	 The recipient agrees to submit quarterly financial reports on Standard
     Form SF 269A. These reports will be submitted within 45 days after
     the end of the calendar quarter, and a final report is due 120 days
     following the end of the award period. The reports shall be submitted
     to the Office of Justice Programs, Grants Management System.

  	 The recipient shall submit semiannual progress reports. Progress
     reports shall be submitted within 30 days after the end of the
     reporting periods, which are June 30 and December 31, for the life of
     the award. These reports will be submitted online through the Office
     for Justice Programs Grants Management System.

  This recommendation can be closed once sufficient action has been taken
  to adequately address the recommendation.

7. Resolved. OJP concurred with our recommendation to ensure that
   NYACA implements policies and procedures that ensure changes to future
   project timelines receive prior approval from the awarding agency. OJP
   stated in its response that it will coordinate with NYACA to obtain a copy
   of written policies and procedures, developed and implemented, to ensure
   that changes to future project timelines receive prior approval from the
   awarding agency.

  In its response, NYACA said it accomplished the program goals within the
  timeline of the grant period. However, we were not provided
  documentation adequately supporting the accomplishment of these goals.
  Further, NYACA noted that it submitted a vast amount of documentation
  to support the program work and that documentation was presented to
  us during our audit. However, as we discussed in our report, NYACA


                                   - 44 -
   provided us with limited documentation, including flyers and meeting
   agendas. But overall, NYACA was unable to demonstrate through
   verifiable documentation that it could support all of its claims of
   achievement.

   NYACA also responded that the audit report took comments of the
   organization’s former executive director out of context. Yet, NYACA failed
   to describe which comments were taken out of context and in what
   manner. NYACA added that an award-winning and nationally recognized
   model for community engagement was used to execute the grant. We
   believe all of the comments discussed in our audit report were included
   with sufficient context to accurately describe the views NYACA
   management expressed to us.

   As we discussed in our audit report, a special condition in the award
   required that any deviation from the approved timeline provided in the
   grant application receive OJP’s prior approval. NYACA’s former staff
   confirmed that the scope of the project was changed from what was
   originally approved by OJP. We were also told that when NYACA decided
   to change the scope of its project, it was not able to adhere to the
   original project timeline approved by OJP. Moreover, from our audit
   fieldwork, we determined that NYACA did not receive OJP’s advance
   approval and, therefore, was not in compliance with the award mandated
   special condition.

   This recommendation can be closed once sufficient action has been taken
   to adequately address the recommendation.

8. Resolved. OJP concurred with our recommendation to ensure that
   NYACA implements policies and procedures that ensure grant funds are
   not used to advocate for local funding. OJP stated in its response that it
   will coordinate with NYACA to obtain a copy of written policies and
   procedures developed and implemented to ensure that federal grant
   funds are not used to advocate for local funding.

   In its response, NYACA said that NY ACORN organizers were never paid
   with grant funds to organize members to gather petitions or to testify at
   public hearings. However, NYACA said that its award proposal clearly
   mentioned that NYACA and NY ACORN would work to educate institutional
   stakeholders and community members about the impact of budget cuts.

   As discussed in our report, one of the award special conditions prohibited
   the use of federal funds to support the enactment, repeal, modification or


                                    - 45 -
   adoption of any law, regulation, or policy at any level of government
   without OJP’s written approval. NYACA’s progress reports stated that
   grant-funded community organization efforts went toward advocating for
   a $100 million increase in after-school funding. They also stated that
   ACORN members paid with grant funds gathered petitions, testified
   before City Council, and met with City Council members to increase
   funding for after-school programs. We believe the activities described in
   these progress reports conflict with and render disingenuous NYACA’s
   response to recommendation #8 in our report. We discussed this issue
   with NYACA officials who told us they did not consider their actions to
   constitute a violation of the award special condition. During our audit
   fieldwork, we also did not identify any post-award approvals from OJP or
   any requests from NYACA concerning this grant-funded advocacy. As a
   result, we concluded that NYACA was not in compliance with this award
   special condition specific to lobbying.

   This recommendation can be closed once sufficient action has been taken
   to adequately address the recommendation.

9. Resolved. OJP concurred with our recommendation to ensure that
   NYACA implements policies and procedures that ensure changes in
   project scope receive prior approval from the awarding agency. OJP
   stated in its response that it will coordinate with NYACA to obtain a copy
   of written policies and procedures developed and implemented to ensure
   that changes in project scope receive prior approval from the awarding
   agency.

   In its response, NYACA said it is common knowledge that submitted
   proposals and work plans change during the course of the year. NYACA
   said it was fully transparent with the awarding agency and would have
   adjusted its programming if the awarding agency disagreed at the time.
   NYACA concludes that sound procedures were in place to ensure
   adherence to project scope based on the deliverables reported.

   As discussed in our report, NYACA, in accepting the award, agreed to
   comply with all of the terms and conditions outlined in the grant award
   documents. A special condition in the award required prior OJP approval
   for any deviation from the timeline established in the grant application
   and approved by OJP in its award. During our interview with the ACORN
   employee who served as NYACA’s executive director, we were told that
   when NYACA decided to change the scope of its project, it was not able to
   adhere to the original project timeline approved by OJP. In its response,
   NYACA simply said that work plans change. However, as we concluded in


                                    - 46 -
   our report, NYACA was required to obtain OJP’s prior approval before
   making changes to the project scope and timeline.

   This recommendation can be closed once sufficient action has been taken
   to adequately address the recommendation.

10.	 Resolved. OJP concurred with our recommendation to ensure that
   OJP remedy the $138,129 in funds that went towards the re-scoped
   project without OJP approval, which includes $124,316 NYACA
   reprogrammed to an unapproved budget category. OJP stated in its
   response that it will coordinate with NYACA to remedy the $138,219 in
   questioned costs related to unapproved funds that went towards the re-
   scoped project without OJP approval, and that includes $124,316 in funds
   that NYACA reprogrammed to an unapproved budget category.

   In its response, NYACA said it adhered to the project scope in the manner
   proposed and accomplished its objectives. NYACA also said it should not
   be required to return funds.

   As we discussed in our report, NYACA officials told us that the scope of
   the project was amended because they perceived the new project could
   have a greater social impact. Moreover, NYACA officials told us that while
   they did not receive prior approval from OJP, the progress reports it
   submitted informed OJP of the change in scope and NYACA did not
   believe further approval was necessary. In our judgment, NYACA was not
   in compliance with the OJP Financial Guide, which explicitly requires OJP
   notification and prior approval before making any changes to the
   approved project scope. With regard to NYACA’s returning funds,
   questioned costs may be remedied by offset, waiver, recovery of funds,
   or the provision of supporting documentation.

   This recommendation can be closed when we receive documentation
   demonstrating that OJP has remedied the $138,129 in funds that went
   toward the re-scoped project without OJP approval.

11.	 Resolved. OJP concurred with our recommendation to ensure that
   NYACA collect and submit performance measurement information and
   include the information in its overall plan for evaluating the effectiveness
   of the project. OJP stated in its response that it will coordinate with
   NYACA to obtain a copy of written policies and procedures developed and
   implemented to ensure that NYACA collects and submits performance
   measurement information and includes the information in its overall plan
   for evaluating the effectiveness of the project.


                                     - 47 -
In its response, NYACA said it accomplished the stated goals of the award
specific to leadership development. NYACA stated that the OIG did not
grasp its theory of change and misunderstood the information NYACA
officials communicated to us during audit fieldwork. Additionally, NYACA
commented that hundreds of students were engaged and leadership of
the target population was developed. However, many of the performance
measurements for leadership development did not have specific
quantitative measurements at the time of the award.

As we discussed in our report, NYACA provided us with limited
documentation that included flyers and meeting agendas but, overall, was
unable to demonstrate through verifiable documentation that it could
support all of its claims of achievement. In our judgment, without
collecting data that measures performance, it is difficult to evaluate
whether award funds expended by NYACA were used efficiently and
effectively to address the problems for which the funding was given.
Furthermore, we tested the verifiable outcomes of the programs, not the
theories on which the design of the program was based. Because NYACA
did not retain adequate documentation, this verification was not possible.

This recommendation can be closed once sufficient action has been taken
to adequately address the recommendation.




                                - 48 -
